                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AMERICORPS COMPILATION OF FINDINGS,
     REPORTS ISSUED APRIL 1, 2005 THROUGH
              DECEMBER 31, 2007
                     OIG REPORT 09-05




                 1201 New York Avenue, NW,
                           Suite 830
                    Washington, DC 20525
                  Telephone (202) 606-9390
                   Facsimile (202) 606-9397




This report was issued to Corporation management on October 10, 2008. The
Cor por ation’sresponse to the draft report agreed with the recommendations and is
considered to be      the     Management Decision. Under the laws and regulations
governing audit follow-up, the Corporation is to complete its corrective actions by
October 13, 2009. Consequently, the reported findings do not necessarily represent
the final resolution of the issues presented.
                          OFFICE OF INSPECTOR GENERAL

                                          October 10, 2008



TO:           Kristin McSwain, Acting Chief Operating Officer

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General Report 09-05, AmeriCorps Compilation of Findings,
              Reports Issued April 1, 2005 Through December 31, 2007

Attached is the final report on the AmeriCorps Compilation of Findings, Reports Issued April 1,
2005 Through December 31, 2007.

                  on’
Under the Corporati saudi
                        tresol
                             uti
                               onpol
                                   i
                                   cy,t
                                      henotice of final action is due by October 13,
2009.

If you have any questions pertaining to the final report, please contact Thomas Chin, at (202)
606-9362, T.Chin@cncsoig.gov; or me, at (202) 606-9360, S.Axenfeld@cncsoig.gov.


Attachment

cc:   William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer,
          Grants and Field Financial Management Center
      Margaret Rosenberry, Director, Office of Grants Management
      Sherry Blue, Audit Resolution Coordinator




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
                        Senior Corps     AmeriCorps     Learn and Serve America
                          Senior Corps     AmeriCorps    Learn and Serve America
                             AmeriCorps Compilation of Findings,
                   Reports Issued April 1, 2005 Through December 31, 2007



                                                 Table of Contents

Executive Summary .................................................................................................... 1

Background ................................................................................................................. 1

Objective, Purpose, and Scope .................................................................................. 2

Summary of Questioned Costs .................................................................................. 2

Summary of Compliance and Internal Control Findings ........................................ .. 7

Conclusions and Recommendations ....................................................................... 12

Exit Conference ......................................................................................................... 13

Corporation Response ….………………………………………………………………….14

OIG Comment …….
              .………………………………….
                            …………………………………….14


Appendices:

A: Detailed Methodology

B: Major Categories and Subcategories of Questioned Costs and Findings

C: Exception Error Rates –Benchmark for Future Analysis

D: Corporation Response




                                                              i
Executive Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), compiled and analyzed the questioned costs and findings from the 43
audit and agreed-upon procedures reports issued by the OIG Audit Section during the
period of April 1, 2005, through December 31, 2007. Of the total $288 million in Federal
funds covered in these audits and agreed-upon procedures, OIG auditors questioned
approximately $8 million of Federal share, $18.5 million of match, and $3.7 million of
education awards. Some reports did not include questioned match. In some of our
reports, match issues are identified. Costs were not questioned because grantees had
more than sufficient match to replace the questioned match in the remaining time in the
grant period.

The objective of this compilation was to summarize for Corporation management the
findings from our AmeriCorps audits and agreed-upon procedures of Corporation grants
made to State Commissions and National Direct grantees. Through this compilation, we
identified trends and patterns among the questioned costs and findings which related to
compliance and internal controls. We classified questioned costs, as well as compliance
and internal control findings, by major categories and subcategories to assist the
Corporation in clarifying regulations, provisions, and policies.

Our analysis of audit and agreed-upon procedures reports noted a significant number of
findings and questioned costs for staff timekeeping, member service hours, and match.
Auditors questioned a total of $2.7 million (including member living allowances and
education awards) and issued 142 findings related to service hours and staff
timekeeping issues. To address these issues, we recommend the Corporation place
greater emphasis on ensuring staff time and member service hours are recorded as
required by Office of Management and Budget (OMB) Circulars and grant requirements,
respectively. The Corporation in its response (Appendix D) to a draft of this report
concurs with our recommendations. TheCor      por at
                                                   ion’
                                                      sresponsemett    hei ntentofthe
recommendations.

Background

The Corporation provides opportunities for citizens of all ages and backgrounds to serve
in their communities to address unmet needs. In carrying out its mission, the
Corporation makes grants, such as those for AmeriCorps programs, to organizations
that develop and implement programs to provide such opportunities. The Corporation
awards AmeriCorps funding to State Commissions, which in turn make grants to local
nonprofit organizations and other agencies, and to national nonprofit organizations that
operate programs in more than one state (National Direct). Citizens enroll in
AmeriCorps programs as members to serve in one of the three AmeriCorps programs:
AmeriCorps*State and National, AmeriCorps*NCCC (National Civilian Community
Corps), and AmeriCorps*VISTA (Volunteers in Service to America). Upon successful
completion of member    s’terms of service, they receive an education award to help
finance their higher education or to pay off existing student loans.

The OIG is responsible for detecting and preventing fraud, waste, and abuse of taxpayer
dollars invested in Corporation programs. In support of these efforts, the OIG issued 43
audits or agreed-upon procedures of State Commissions and National Direct grantees
during the period of April 1, 2005, through December 31, 2007. These reports included
27 audits of State Commissions and 16 audits of National Direct grantees. Refer to the
Table A-1 in Appendix A for the list of AmeriCorps audit and agreed-upon procedures
reports issued by OIG between April 1, 2005 and December 31, 2007.

Prior to this analysis, the OIG had compiled and analyzed overall questioned costs and
findings from the completed incurred-cost audits of State Commission and National
Direct grantees. We considered previous efforts to compile and analyze audit
information by reviewing categories and subcategories utilized in the OIG Report 05-
01E, Compilation and Analysis of Incurred-Cost Audit Findings, which was issued on
July 15, 2005. This previous compilation report covered AmeriCorps audit reports
issued during the period of October 1, 2001 (from the beginning of the State
Commission effort) through March 31, 2005.          We also reviewed analysis and
conclusions that were included in OIG Report 05-01E. OIG Report 05-01E included
issues with inadequate financial controls and accounting systems, as well as non-
compliance in member eligibility records.


Objective, Purpose, and Scope

The objective of this compilation is to summarize the findings from our AmeriCorps
audits and agreed-upon procedures of Corporation grants made to State Commissions
and National Direct grantees during the period of April 1, 2005, through December 31,
2007. This compilation report was used to identify any significant trends and patterns
among the questioned costs and findings which related to compliance and internal
controls, and provide recommendations to the Corporation management. We classified
questioned costs as well as compliance and internal control findings, by major
categories and subcategories.

As part of our compilation, we considered all categories that have been used to report on
patterns from prior compilations of OIG audit findings and categories identified in Federal
requirements, such as those governing grants administration and cost principles
promulgated by the Office of Management and Budget. Also, we developed a series of
spreadsheets to compile, summarize, and record questioned costs and findings to
facilitate ongoing retrieval, analysis, and reporting. We analyzed patterns of questioned
costs and findings by audit reports, categories, and subcategories. Significant patterns
are presented and explained with table and chart illustrations to support our conclusions
and recommendations. In addition, where possible, findings were identified by
subgrantees. A detail of our methodology for this compilation is presented in Appendix
A. Listings of categories and subcategories of questioned costs and findings are
included in Appendix B.

We conducted our work in accordance with Quality Standards for Inspections (January
2005) issued by the Pr
                     esi
                       dent’
                           sCounci lonI nt
                                         egrityandEf  f
                                                      ici
                                                        ency .


Summary of Questioned Costs

Of the total $288 million that grantees and subgrantees claimed under their respective
AmeriCorps grant awards included in this compilation, auditors questioned Federal
share of $7,975,489, match of $18,508,481, and education awards of $3,653,757. Refer
to Table 1 for a breakdown of questioned costs by report, and Chart 1 by category.

                                            2
Table 1: Claimed Costs & Questioned Costs by Audit/Agreed-Upon Procedures Report

             Total Federal Funds                                             Total Questioned -
  Report                           Total Questioned -   Total Questioned -
              Covered/Claimed                                                Member Education
  Number                            Federal Share ($)       Match ($)
                   Costs ($)                                                     Award ($)

  05-10          3,336,952              51,701                  -                 45,919
  05-15          2,984,535              60,450               17,875                  -
  05-17          5,679,673              73,827              347,058               27,526
  05-18           638,162              171,565               45,303               14,478
  05-19           599,795                8,228               7,562                40,163
  05-20          4,994,479              34,729                  -                 49,613
  05-21          4,242,581              13,775                  -                 16,139
  05-22           124,350               62,598                  -                 31,500
  05-24         72,023,330            1,041,476            8,694,506             414,260
  06-04           339,192               11,416               2,161                18,900
  06-05          1,512,093             152,680              309,372               64,115
  06-10         10,367,709             266,950             6,254,305             987,969
  06-12          5,266,112             100,600                  -                 2,195
  06-14         34,453,824             289,560              605,378              307,125
  06-16          7,058,989               9,971                  -                    -
  06-17           950,017                 609                   -                    -
  06-18          1,011,429                 31                   -                    -
  06-19          4,346,389                  -                   -                    -
  06-20           427,742                   -                   -                    -
  06-21          3,786,482                  -                   -                 4,725
  06-22           661,760                1,326                  -                    -
  06-23         10,148,130              23,606                  -                 14,490
  06-25         16,263,960             134,130              874,707              618,299
  06-26          3,453,178             102,274                  -                 38,937
  06-27          3,788,137                  -                   -                    -
  06-28          6,621,005              31,379               17,557                  -
  06-30          4,514,097              22,661               1,636                9,310
  06-33          3,848,152               4,703              372,686                  -
  06-36          1,502,426              17,910                  -                    -
  06-37          1,962,389               9,507                  -                 4,795
  07-04          2,120,532              98,966                  -                    -
  07-05          5,759,190             461,086              195,327              162,260
  07-07         11,992,968             441,639              125,945               65,929
  07-08          4,546,121              72,518                  -                 73,325
  07-10           465,897               19,960                  -                 29,275
  07-13              #                      -                   -                138,496
  07-14         11,452,153              36,311               13,691               27,033
  07-15          3,734,205              18,401               8,821                14,153
  07-18         16,974,154            3,495,062              30,425               28,355
  07-20          3,912,907              18,458               23,485               4,725
  07-21          5,363,221             502,774              560,681              249,226
  08-04           253,600               41,984                  -                 98,409
  08-08          4,623,207              70,668                  -                 52,113
 Total ($)      288,105,224           7,975,489            18,508,481           3,653,757


                                              3
#: Agreed-upon procedures report did not disclose total covered amount. Due to an inadequate accounting
system of the auditee, our scope of the agreed-upon procedures report was limited to member testing.

Chart 1: Questioned Costs by Category


                              Chart 1: Questioned Costs by Category

                                                                  E. Member
                                                                Education Award,
                                                                  $3,653,757




                                                                       A. Budget and Reporting,
                                                                             $3,995,131




                B. Match, $18,508,481
                                                                      C. Unallowable Costs,
                                                                           $2,657,424


                                                                  D.MemberCost    s–
                                                                   Living Allowance,
                                                                       $1,322,934




Table 2 below shows the total of questioned costs by category for each audit/agreed-
upon procedures report we reviewed.

Table 2: Questioned Costs by Category and Audit/Agreed-Upon Procedures Report

                             Questioned Federal Share
 Report                                               D. Member                                   E. Member
 Number       A. Budget             C. Unallowable   Costs - Living                               Education
            & Reporting ($)            Costs ($)     Allowance ($)          B. Match ($)          Award ($)
  05-10         (68,830)                88,021           32,510                        -           45,919
  05-15          59,399                  1,051              -                      17,875             -
  05-17          16,042                 32,562           25,223                347,058             27,526
  05-18          (6,086)                177,651             -                      45,303          14,478
  05-19          (7,384)                 3,550           12,062                    7,562           40,163
  05-20         (20,167)                18,822           36,074                        -           49,613
  05-21            915                   3,479            9,381                        -           16,139
  05-22           (66)                  53,360            9,304                        -           31,500
  05-24          57,908                 762,274          221,294              8,694,506            414,260
  06-04             -                   11,416              -                      2,161           18,900



                                                     4
                          Questioned Federal Share
Report                                           D. Member                      E. Member
Number        A. Budget       C. Unallowable    Costs - Living                  Education
            & Reporting ($)      Costs ($)      Allowance ($)    B. Match ($)   Award ($)
 06-05          29,861            59,181              63,638       309,372       64,115
 06-10             -              190,390             76,560      6,254,305      987,969
 06-12          87,250            10,377              2,973           -           2,195
 06-14             -              148,241            141,319       605,378       307,125
 06-16          6,614              3,357                 -            -             -
 06-17             -                609                  -            -             -
 06-18             -                31                   -            -             -
 06-19             -                 -                   -            -             -
 06-20             -                 -                   -            -             -
 06-21             -                 -                   -            -           4,725
 06-22          1,326                -                   -            -             -
 06-23           169               1,799              21,638          -          14,490
 06-25         108,555            15,325              10,250       874,707       618,299
 06-26          59,996             2,563              39,715          -          38,937
 06-27             -                 -                   -            -             -
 06-28             -               2,792              28,587       17,557           -
 06-30          3,359               382               18,920        1,636         9,310
 06-33            83               2,661              1,959        372,686          -
 06-36          11,079             1,536              5,295           -             -
 06-37          2,962              5,050              1,495           -           4,795
 07-04          41,621            10,117              47,228          -             -
 07-05             -              154,439            306,647       195,327       162,260
 07-07          36,459            361,969             43,211       125,945       65,929
 07-08             -                696               71,822          -          73,325
 07-10          4,569             15,391                 -            -          29,275
 07-13             -                 -                   -            -          138,496
 07-14             -              16,463              19,848       13,691        27,033
 07-15             -                100               18,301        8,821        14,153
 07-18        3,482,245           10,144              2,673        30,425        28,355
 07-20          1,966                -                16,492       23,485         4,725
 07-21          16,465            463,325             22,984       560,681       249,226
 08-04          41,984               -                   -            -          98,409
 08-08          26,837            28,300              15,531          -          52,113

Total ($)     3,995,131          2,657,424           1,322,934   18,508,481     3,653,757




                                               5
Table 3 below shows questioned costs by subcategory. The largest questioned cost
was for issues related to inadequate or missing documents for match ($7,747,117). It is
followed by issues related to match that were not allowed/allocable/reasonable, as well
as match based on budget but not actual amounts. Total questioned match is
$3,559,670, which excluded the two significant questioned match amounts as identified
from OIG Reports 05-24 and 06-10. For the breakdown of the questioned match by
subcategory, refer to Chart 2 for details.

Table 3: Amount of Questioned Costs by Subcategory

                                                                                      Questioned
   Category     Subcategory
                                                                                       Costs ($)
                1. Difference between Financial Status Report (FSR) and General
                                                                                      3,542,253
                   Ledger/Support
               2. Drawdowns                                                             41,984
               3. Duplicative Costs                                                    137,941
               4. Costs Claimed in Excess of Costs Incurred/Ceiling                     77,735
 A. Budget and 5. Deviation from Budget/Cost Not in Budget/Budget Changes
   Reporting                                                                            57,775
                   Without Prior Approval
               6. FSR Adjustment/Reporting Error                                       (26,591)
               7. Accounting/Clerical Error                                             46,933
               8. Not Applicable to Grant/Charged to Other or Prior Grant               66,524
               9. Paid Outside Grant Service/Period                                     17,280
               10. Miscellaneous/Combined Issues                                        33,297
                1.   Based on Budget not Actual                                       4,189,220
                2.   Inadequate/Missing Documents/Not Supported                       7,747,117
   B. Match
                3.   Not Allowable/Allocable/Reasonable                               4,416,111
                4.   Miscellaneous/Combined Issues (Other Unmet or Shortfall Match)   2,156,033
                1.   Staffing/Payroll                                                  810,826
                2.   Cost Principles                                                   113,588
                                                                                       362,762
 C. Unallowable 3.   Not Allocable/Misallocated/ Reclassification
     Costs      4.   Inadequate/Missing Documents/Not Supported                       1,014,503
                5.   Inadequate Evidence of Member Service (Service Hours/Member
                                                                                        50,863
                     Status)
                6.   Miscellaneous/Combined Issues                                     304,882
                1.   Member Eligibility                                                623,706
                2.   Member Service Hours                                              215,086
D. Member Costs 3.   Member Status                                                      72,641
    –Living     4.   Overclaimed/Overpaid                                              177,451
   Allowance                                                                           113,594
                5.   Excess Federal Maximum Share/Ceiling
                6.   Inadequate/Missing Documents                                       40,756
                7.   Miscellaneous/Combined Issues                                      79,700
                1.   Member Eligibility                                                701,871
                2.   Member Service Hours                                             1,671,156
  E. Member     3.   Member Status                                                     210,481
Education Award 4.   Compelling Personal Circumstances                                 125,426
                5.   Inadequate/Missing Documents                                      942,230
                6.   Miscellaneous/Combined Issues                                      2,593




                                                 6
Also refer to Appendix B for further descriptions of certain subcategories as mentioned
above in Table 3.

Chart 2: Breakdown of Match by Subcategory


                    Chart 2: Breakdown of Match by Subcategory



                                                   Miscellaneous/Combined Issues
                                                  (Other Unmet or Shortfall Match),
                                                             $2,156,033



                                                                                      Based on Budget not Actual,
                      Not Allow able/Allocable/                                              $4,189,220
                      Reasonable, $4,416,111




                                                       Inadequate/Missing Documents/
                                                         Not Supported, $7,747,117




As shown in Table 3, other subcategories with significant questioned costs include
variances between FSR and general ledger/support; member eligibility (citizenship or
education); issues related to member service hours including improper timesheets and
insufficient service hours to earn award. Questioned costs for member background
check issues are not included in this report because beginning with OIG Report 06-27,
the OIG changed the treatment of this issue from questioned cost to a compliance issue.

In addition, we noted questioned costs for inadequate support or missing documents, as
shown from the Table 3 above. These documentation issues represent a total of
$9,744,606 questioned. We noted that the majority of these costs, or $7,326,008, came
from OIG Reports 05-24 and 06-10.


Summary of Compliance and Internal Control Findings

Table 4 below shows the number of findings by category for each audit/agreed-upon
procedures report. We noted a total of 741 findings with associated recommendations.
Out of that total, 407 findings related to member compliance, eligibility, and reporting. Of
the member compliance, eligibility, and reporting findings, 93 findings were specific to
member timekeeping.




                                                                  7
Table 4: Findings by Category and Audit/Agreed-Upon Procedures Report

                                                                                Member
                                                     Grant        Grant       Compliance,
Report    Financial     Subgrantee     Financial   Compliance   Compliance     Eligibility,
Number   Management     Monitoring     Reporting    Matching      Other      and Reporting    Total
 05-10        2             2              1           0            8              15           28
 05-15        2             0              0           1            2               9           14
 05-17        2             2              1           4            7              14           30
 05-18        1             0              0           1            5               4           11
 05-19        3             0              2           3            6              14           28
 05-20        3             1              6           2            6              13           31
 05-21        3             2              2           2            8              18           35
 05-22        0             0              0           2            4              10           16
 05-24        0             0              3           3            4              14           24
 06-04        0             0              0           1            2               2            5
 06-05        2             0              2           4            4              14           26
 06-10        1             1              5           3            3              14           27
 06-12        2             0              0           0            2               2            6
 06-14        1             0              1           0            3              13           18
 06-16        0             0              2           0            3               7           12
 06-17        0             0              2           0            3               7           12
 06-18        0             0              2           0            3               7           12
 06-19        0             0              2           0            3               7           12
 06-20        0             0              2           0            3               7           12
 06-21        0             0              2           0            3               7           12
 06-22        0             0              2           0            3               7           12
 06-23        3             0              0           0            1              11           15
 06-25        0             1              2           2            2              10           17
 06-26        2             2              1           2            4              15           26
 06-27        0             0              1           0            0               2            3
 06-28        1             1              0           0            3              13           18
 06-30        0             0              0           2            2               5            9
 06-33        1             0              3           2            3               2           11
 06-36        1             2              1           4            3              10           21
 06-37        3             1              2           2            6              13           27
 07-04        1             0              1           3            3              10           18
 07-05        1             0              3           2            3               6           15
 07-07        0             0              1           2            4              10           17
 07-08        1             0              1           0            2              14           18
 07-10        1             1              3           0            2               3           10
 07-13        0             0              0           0            0              15           15
 07-14        0             0              2           2            2               3            9
 07-15        0             1              1           2            3               7           14
 07-18        0             0              3           3            4              14           24
 07-20        1             0              3           2            4               6           16
 07-21        3             0              2           2            2               8           17
 08-04        0             0              1           0            0               8            9
 08-08        1             1              3           2            5              17           29
 Total       42             18            71           60          143            407          741

Table 5 below shows the total number of findings by subcategory. Timekeeping
categories combined for the largest number of findings, with a total of 142 findings
related to timekeeping issues for program staff (49 findings), and members (93 findings).
Other issues related to member compliance, eligibility, and reporting include member
eligibility (citizenship, background checks, education documentation requirements, etc.)
that were not adequately performed/documented (73 findings); late, missing, or
inadequate membership forms (59 findings); missing or inadequate evaluations (50

                                           8
findings); and missing or inadequate member contracts (50 findings). Refer to Chart 3
and Chart 4 for a breakdown in findings for (staff and members) timekeeping issues.

Table 5: Number of Findings by Subcategory

                                                                                              Number of
   Category         Subcategory
                                                                                               Findings
                    1.   Inadequate Financial Management System                                   17
 A. Financial
                    2.   Weakness in Internal Controls/Segregation of Duties                      12
 Management
                    3.   Inadequate/Lack of Formal Policies                                       11
                    4.   Miscellaneous/Combined Issues                                             2
               1.        Single Audit Report Inadequately Reviewed                                 7
               2.        Site Monitoring Not Performed/Inadequate Documented                       8
 B. Subgrantee
               3.        Past Performance Not Documented                                           1
   Monitoring
               4.        Deficiencies Noted from Audits/Monitoring Compliance Not Followed Up      2
               5.        Miscellaneous/Combined Issues                                             0
                    1.   Financial Document Retention                                           12
                    2.   Financial Status Report                                                51
  C. Financial
                    3.   Accounting Errors                                                       4
   Reporting
                    4.   Drawdowns                                                               3
                    5.   Miscellaneous/Combined Issues                                           1
                    1.   Cost Principles and Costs Allowable/Allocable/Reasonable               26
   D. Grant         2.   Not Supported by Documentation                                         21
 Compliance -       3.   Inadequate Financial Management System                                  6
  Matching                                                                                       7
                    4.   Accounting Errors
                    5.   Miscellaneous/Combined Issues                                           0
                    1.   Cost Principles and Costs Allowable/Allocable/Reasonable               37
                    2.   Not Supported by Documentation                                         32
   E. Grant                                                                                     49
                    3.   Staff Timekeeping
 Compliance -
    Other           4.   Progress Report                                                        20
                    5.   Other Non-Compliance in Grant Provisions/Laws & Regulations             5
                    6.   Miscellaneous/Combined Issues                                           0
                    1.  Living Allowance/Benefit Expenses Not Paid Correctly                    24
                    2.  Cost Principles and Costs Allowable/Allocable/Reasonable                7
                    3.  Member Eligibility Not Performed/Untimely Performed/Inadequate
                                                                                                73
                        Eligibility Records
                    4. Membership Forms (Enrollment, Exit, Change-of-Status)                    59
  F. Member         5. Evaluations (Mid-Term & Final)                                           50
 Compliance,        6. Member Timekeeping                                                       93
 Eligibility, and   7. Orientation Documents (Agenda/Sign-in Sheet)                             16
   Reporting
                    8. Contract                                                                 50
                    9. Compelling Personal Circumstances Provisions Non-Compliance/Not
                                                                                                13
                        Documented
                    10. Insurance/Benefits Not Provided/Not Approved                            14
                    11. Other Non-Compliance in Grant Provisions/Laws & Regulations             6
                    12. Miscellaneous/Combined Issues                                            2

Also refer to Appendix B for further descriptions of certain subcategories as mentioned
above in Table 5.


                                                      9
From the Table 5 above, we also noted 51 findings on FSR reporting. While most FSR
findings were for untimely submissions (30 findings), we also noted FSR reporting errors
(17 findings, including 9 findings of the FSR not reconciled to financial management
system/support)1.

Chart 3: Breakdown of Findings in Subcategory: Staff Timekeeping


                    Chart 3: Breakdown of Findings in Subcategory:
                                   Staff Timekeeping

                                               Hours Not
                                         Allocable/Allowable, 24




                                                                     Timesheets Not Signed, 7
                 Timesheets Not
            Retained/Not Prepared, 10


                                           Inadequate Timesheets
                                              (Errors/Improper
                                                Changes), 8




1
 Another trend that occurred were grantee changes to FSRs took place when the OIG audit work
began. It appears that, in these cases, attention is not given to the accuracy of FSR unless/until
an audit is announced. Such changed FSRs were found at Maryland Governor's Office on
Service and Volunteerism, District of Columbia Commission on Volunteerism and Community
Service, YouthBuild USA, Inc., Illinois Commission on Volunteerism and Community Service,
OneStar (Texas) National Service Commission, Inc., and another grantee (report not finalized).

                                                 10
Chart 4: Breakdown of Findings in Subcategory: Member Timekeeping


                       Chart 4: Breakdown of Findings in Subcategory:
                                    Member Timekeeping
                                                             Late
                                                          Submission,
                                                              2

                                       Other Errors, 13
                                                                        Not Retained/Not Prepared,
                                                                                    18



                         Hours Not
                    Allowable/Allocable/
                      Reasonable, 12




            Hours Recorded Before/
             After Service Date, 1

                                                                               Inadequate Timesheets (No
                                                                                Signatures/Errors/Improper
                                                                                      Changes), 20
                             Variances Between
                          Timesheets and WBRS, 27




In addition to the staff and member timekeeping issue as mentioned above, we also
noted findings for inadequate support or a variety of weaknesses in documentation
(incomplete documentation, document retention, etc.). Some of these documentation
issues were noted and included in various subcategories (member eligibility records,
membership forms, evaluations, timesheets, contracts, and orientation documents)
under the findings categories: member compliance, eligibility, and reporting. We
extracted portions from the above Table 5, which shows the remaining documentation
issues. Refer to the below Table 6 for details.

Table 6: Breakdown of Findings in Documentation-Related Issues (Except Category:
         Member Compliance, Eligibility, and Reporting)

                                                                                                             Number of
       Category                Subcategory
                                                                                                              Findings
      Subgrantee               o      Site Monitoring Not Performed/Inadequate Documented                         8
      Monitoring               o      Past Performance Not Documented                                             1
                               o      Financial Document Retention                                               12
   Financial Reporting
                               o      FSR Not Supported by Documentation                                          2
   Grant Compliance –
                               o      Not Supported by Documentation                                            21
        Matching
   Grant Compliance –
                               o      Not Supported by Documentation                                            32
          Other




                                                          11
Conclusions and Recommendations

It is important for AmeriCorps grantees to follow all grant requirements. This report
includes three recommendations that address the most common findings which include
staff timekeeping, member timekeeping, and match documentation.

1. Member/Program Staff Service Hours and Timekeeping

Conclusion: We noted findings and questioned costs for member service hours and
timekeeping issues for members and program staff. There were numerous instances
where members received education awards even though they had not served the
required number of hours. Reports also include various types of timekeeping issues for
both members and program staff, including: timesheets not prepared, incomplete
timesheets, timesheets not reviewed and approved, improper alteration on timesheets,
improper reporting/inflating service hours or hours worked, hours not allocable, or
variances between timesheets and Web-Based Reporting System (WBRS) records
(AmeriCorps members only). In some cases, these timekeeping deficiencies resulted in
miscalculation of member service hours, which led to the discovery of insufficient service
hours for some members. We questioned approximately $2.7 million ($.8 million for
program staff hours; $.2 million for member service hours, living allowances; and $1.7
million for member service hours, education awards).

Recommendation: We recommend the Corporation place greater emphasis on
requiring grantees and subgrantees to follow the OMB Circulars, regulations, and grant
provisions regarding member service hours and staff timekeeping. The Corporation
should strengthen its grantees and subgrantees monitoring to ensure education
awards/living allowances are only provided to members who have achieved sufficient
service hours. Also, the Corporation should ensure grantees and subgrantees have
effective systems and procedures to track, review, and maintain service hours recorded
by members before the member is certified for an education award. As part of this effort,
the Corporation should test member service hours certified against source records
(timesheets) on file at grantees and/or subgrantees for overall accuracy,
reasonableness, and completeness, and that members are eligible to receive education
awards. In addition, we recommend the Corporation provide training to grantees and
subgrantees on timekeeping and service hour requirements.

2. Member Eligibility and Records

Conclusion: We noted instances in which grantees and/or subgrantees did not comply
with grant award conditions regarding member eligibility and records. The most frequent
incidents of noncompliance involved untimely performance of member eligibility
requirements and missing or incomplete eligibility records for AmeriCorps members,
es pecial
        lyt hose t  hatdocumentt   he i ndividualmember   ’s cit
                                                               izenship stat
                                                                           us, criminal
background checks, and education (high school diploma or its equivalent). Also, we
noted various deficiencies in required membership forms, member contracts,
evaluations, and orientation documents. These weaknesses include missing or
incomplete documents, preparation of documents not performed, lack of signatures,
improper changes on documents, or data errors noted on documents. As a result, the
auditors questioned approximately $1.3 million ($.6 million questioned for living
allowances and $.7 million questioned for education awards), or 248 findings related to
member eligibility and records over the period we reviewed.

                                           12
Recommendation: We recommend the Corporation continue to strengthen its systems
and procedures for monitoring member eligibility and records. As part of this effort, the
Corporation should test member eligibility data maintained and reports generated from
its automated systems against source records on file at grantees and/or subgrantees for
overall accuracy and completeness. In addition, this evaluation should assess both the
level of Corporation and grantee oversight and monitoring procedures on member
records and the accuracy and completeness of these records. We also recommend the
Corporation provide additional training to grantees regarding member eligibility and
records.

3. Documentation Maintenance and Support for Match

Conclusion: Auditors were unable to determine the allowable, allocable, or
reasonableness of $7.7 million of claimed match costs.

Recommendation: We recommend the Corporation continue to strengthen the
adequacy and effectiveness of its gr antees’andsubgr  antees’systems and procedures
in place to properly record and maintain documents to support claimed match costs. As
part of this effort, the Corporation should continue to provide training, technical
guidance, and best practices in document retention. Also, we recommend the
Corporation continue to place greater emphasis on document retention and to monitor its
grantees and subgrantees on their practices in obtaining and maintaining
documentation.

A major cause for some of the unsupported costs included in multiple areas of OIG audit
reports is the allowance given to grantees after a final audit report is issued of the further
opportunity to provide documentation which should have been supplied, if it exists, within
the sufficient time allotted during the audit timetable.

Given that notice of problems uncovered in the audit are disclosed to the grantee as
discovered during the audit and all problems are enumerated during the exit conference,
the grantee has more than sufficient time before the final audit report is issued to provide
source documentation, complete voids found in its files, and otherwise provide
information to respond to the problems disclosed.

We recommend that the Corporation require grantees to provide prompt responses to all
audi
   tors’r
        equest
             sduring an ongoing audit.


Exit Conference

We conducted an exit conference with Corporation management on August 12, 2008,
and discussed the results of this report. Based on discussion at the exit conference, we
included a table at Appendix C as a benchmark for comparison with future compilation
reports.




                                             13
Corporation Response

The Corporation concurred with all of our recommendations, confirmed the Corporation's
own analysis of findings, and said it would take the following actions:

    Conduct an AmeriCorps grantee meeting to provide training on financial
     management and compliance for grantee program and financial staff members.
    Present common audit findings and emphasize the importance of subgrantee
     monitoring to all Commi
                           ssi
                             onsatt heCommi    ssionExecut i
                                                           veDi rect
                                                                   or ’smeet
                                                                           ing.
    Implement t he“   MyAmeri
                             CorpsPor  tal
                                         ”by late January 2009. This site will be
     used to monitor member enrollments and exits.
    Develop webinars through a technical assistance provider that will address
     match documentation, recordkeeping, and timekeeping issues.

While the Corporation concurred with all of our recommendations, it stated that there is
no basis to conclude that documentation is not available during the audit due to the
Corporation’s allowance for grantees to submit documentation late.           Also, the
Corporation explained that some subgrantees did not have sufficient time to retrieve
stored documents from prior completed program years. The Corporation stated that it
has taken corrective actions to ensure all documentation is readily available during
audits.


OIG Comment

TheCor
     por
       ati
         on’
           spl
             annedact
                    ionssat
                          is
                           fyt
                             hei
                               ntentofourr
                                         ecommendat
                                                  ions.

Inr es ponse t ot  he Cor  por ati
                                 on’s commentt   hat there is no basis to conclude that
documentation is not available during the audit due to the Corporation’    sallowance for
grantees to submit documentation late. We do not believe we mischaracterized the
issue. In the draft r epor t,west  atedt hat“ amajor cause for some of the unsupported
costs included in multiple areas of OIG audit reports is the allowance given to grantees,
after a final audit report is issued, ofthef urtheroppor tunityt oprov idedocument ation”
(emphasis added). We did not conclude the cause for all documentation maintenance
issues was due to allowance given to grantees to provide documentation after the
issuance of final audit report, but we did observe the cause in several audits.

Regardi ng Cor por at
                    ion’
                       s suggest  i
                                  on t oi dent i
                                               fy specific remedies to address other
i
ssues ,i twasOI  G’ splantofocus only on major findings with high occurrence rates.
Based on our analysis, we identified three major areas: member/program staff service
hours and timekeeping, member eligibility and records, documentation maintenance and
support for match.




                                          14
This report is intended for the information and use of the OIG, Corporation management,
and the U.S. Congress. However, this report is a matter of public record and its
distribution is not limited.




Stuart Axenfeld /s/
Assistant Inspector General for Audit
October 10, 2008




                                          15
Appendix A: Detailed Methodology




               16
The OIG reviewed the listing of reports issued and identified all AmeriCorps-related audit
or agreed-upon procedures reports, issued during the period April 1, 2005 to December
31, 2007. As shown in the Table A-1 below, OIG issued a total of 43 audit and agreed-
upon procedures reports within the scope of this compilation. These reports covered
Corporation grants awarded to 27 State Commissions and 16 National Direct grantees.

Table A-1: List of AmeriCorps Related Reports Issued by OIG (4/1/2005 to 12/31/2007)

 Report                                                                   Report   Grant
                                   Report Title
 Number                                                                    Type    Type
            Audit of the Corporation for National and Community Service
   05-10    Grants Awarded to the Nevada Commission on National and       Audit     SC
            Community Service
            Audit of Corporation for National and Community Service
   05-15    Grants Awarded to the Nebraska Volunteer Service              Audit     SC
            Commission
            Audit of Corporation for National and Community Service
   05-17    Grants Awarded to the Louisiana Serve Commission              Audit     SC

            Agreed-Upon Procedures of Corporation for National and
   05-18    Community Service Grants Awarded to the Wyoming                AUP      SC
            Commission for National and Community Service
            Audit of Corporation for National and Community Service
            Grants Awarded to the Notre Dame Mission Volunteers
   05-19                                                                  Audit     SC
            Program Through the Maryland Governor's Office on Service
            and Volunteerism
            Audit of Corporation for National and Community Service
   05-20    Grants Awarded to the Notre Dame Mission Volunteers           Audit     ND
            Program
            Audit of Corporation for National and Community Service
   05-21    Grants Awarded to the Iowa Commission on Volunteer            Audit     SC
            Service
            Agreed-Upon Procedures Review of Corporation for National
            and Community Service Grant Awarded to the Haddock
   05-22    AmeriCorps Cadet Program by the Georgia Commission for         AUP      SC
            Service and Volunteerism
            Audit of Corporation for National and Community Service
   05-24    Grants Awarded to the Governor's Office on Service and        Audit     SC
            Volunteerism (GO SERV)
            Agreed-Upon Procedures Review of Corporation for National
            and Community Service Grant Awarded to the
   06-04    Comprehensive Links for After School Enrichment by the         AUP      SC
            Puerto Rico State Commission on Community Service and
            Social Action
            Audit of Corporation for National and Community Service
   06-05    Grants Awarded to the Puerto Rico State Commission on         Audit     SC
            Community Service and Social Action Subgrantees
            Audit of Corporation for National and Community Service
   06-10    Grants Awarded to YouthBuild USA, Inc.                        Audit     ND




                                            17
Report                                                                   Report   Grant
                                  Report Title
Number                                                                    Type    Type
         Audit of Corporation for National and Community Service
06-12    Grants Awarded to EducationWorks                                Audit     ND

         Audit of Corporation for National and Community Service
06-14    Grants Awarded to New York State Office of National and         Audit     SC
         Community Service

06-16    Audit of Grants Awarded to City Year, Inc.                      Audit     ND
         Audit of Subgrants to City Year, Inc. Through the
06-17    Massachusetts Service Alliance                                  Audit     ND

         Audit of Subgrants to City Year, Inc. through the State of
06-18    Michigan Department of Career Development                       Audit     ND

         Audit of Subgrants to City Year, Inc. Through the Illinois
06-19    Commission on Volunteerism & Community Service                  Audit     ND

         Audit of Subgrants to City Year, Inc. Through the District of
06-20    Columbia Commission on Volunteerism and Community               Audit     ND
         Service (SERVE DC)

         Audit of Subgrants to City Year, Inc. Through PennSERVE,
06-21    the Governor's Office of Citizen Service                        Audit     ND

         Audit of Subgrants to City Year, Inc. Through the Texas
06-22    Commission on Volunteerism & Community Service                  Audit     ND

         Audit of Corporation for National and Community Service
06-23    Grants Awarded to the Massachusetts Service Alliance            Audit     SC

         Audit of Corporation for National and Community Service
06-25    Grants Awarded to the Illinois Commission on Volunteerism       Audit     SC
         and Community Service
         Audit of Corporation for National and Community Service
06-26    Grants Awarded to the New Mexico Commission for                 Audit     SC
         Community Volunteerism
         Audit of Corporation for National and Community Service
06-27    Grants Awarded to Virginia Governor's Commission on             Audit     SC
         National and Community Service
         Audit of Corporation for National and Community Service
06-28    Grants Awarded to Habitat for Humanity International            Audit     ND

         Audit of Grants Awarded to the Tennessee Commission on
06-30    National and Community Service                                  Audit     SC

         Audit of Corporation for National and Community Service
06-33    Grants Awarded to the Oklahoma Community Service                Audit     SC
         Commission
         Audit of Corporation for National and Community Service
06-36    Grants Awarded to Serve Idaho, Governor's Commission on         Audit     SC
         Service and Volunteerism
         Audit of Corporation for National and Community Service
06-37    Grants Awarded to the Arizona Governor's Commission on          Audit     SC
         Service and Volunteerism


                                           18
 Report                                                                   Report   Grant
                                    Report Title
 Number                                                                    Type    Type
            Audit of Corporation for National and Community Service
   07-04    Grants Awarded to the Utah Commission on Volunteers           Audit     SC

            Audit of the Corporation for National and Community Service
   07-05    Grants Awarded to the Maryland Governor's Office on           Audit     SC
            Service and Volunteerism
            Audit of Corporation for National and Community Service
   07-07    Grants Awarded to Volunteer Florida                           Audit     SC

            Audit of Corporation for National and Community Service
   07-08    Grants Awarded to Public Allies, Inc.                         Audit     ND

            Audit of Corporation for National and Community Service
   07-10    Grant Awarded to Home Instruction for Parents of Preschool    Audit     ND
            Youngsters, USA
            Agreed-Upon Procedures of Corporation for National and
   07-13    Community Service Grants Awarded to Teach for America          AUP      ND

            Agreed-Upon Procedures Review of Grants Awarded by
   07-14    Corporation for National and Community Service to              AUP      SC
            Mississippi Commission for Volunteer Service
            Agreed-Upon Procedures for Corporation for National and
   07-15    Community Service Grants Awarded to the Kansas Volunteer       AUP      SC
            Commission
            Agreed-Upon Procedures For Corporation For National And
   07-18    Community Service Grants Awarded To The OneStar                AUP      SC
            National Service Commission, Inc.
            Agreed-Upon Procedures of Corporation for National and
   07-20    Community service Grants Awarded to the Arkansas Service       AUP      SC
            Commission
            Audit of Corporation for National and Community Service
   07-21    Grant Awarded to United States Veterans Initiative, Inc.      Audit     ND

            Agreed-Upon Procedures of Corporation for National and
   08-04    Community Service Education Award Grant Awarded to             AUP      ND
            United States Veterans Initiative
            Agreed-Upon Procedures for Corporation for National and
   08-08    Community Service Grants Awarded to Serve DC                   AUP      SC


Key to Table A-1:
AUP=Agreed-Upon Procedures
SC=State Commission
ND=National Direct

For each identified report above, we reviewed contents and results. To develop
categories and subcategories for the questioned costs, and compliance and internal
controls findings, we focused on reviewing the nature and causes of all issues identified
in each report. For the purpose of this compilation, all issues identified in each report
(with fieldwork conducted by personnel from OIG or independent accounting firms) were
considered and included, regardless of concurrence or non-concurrence from State
Commissions and/or National Direct grantees. OIG also did not consider or include


                                            19
resolutions of issues due to a significant number of unresolved resolutions as of June
2008.

Although we did not review all detailed methodology of each audit or agreed-upon
procedures report, we obtained an understanding of the engagement objectives, as well
as the types and extent of information being collected. An audit or agreed-upon
procedures reviews whether: (1) costs claimed under the award are allowable,
supported, reasonable, and necessar   y
                                      ;(2)gr   ant
                                                 ee’scompl iance withthe appl  i
                                                                               cable
award terms and requirements; (3) internal controls over financial management and
reporting were adequate to safeguard Federal funds.

Our review of the previous compilation report served as a reference for developing
categories and subcategories for types of issues and for planning areas of focus in this
compilation. This previous compilation report covered AmeriCorps audit reports issued
during the period of October 1, 2001 through March 31, 2005. We also reviewed
analysis and conclusions that were reported in the OIG Report 05-01E. OIG Report 05-
01E revealed issues of inadequate financial controls and accounting systems as well as
non-compliance in member eligibility records.

As a result of procedures performed above, the three main groups of categories that we
designated for questioned costs were grant costs, match, and member costs. Grant
costs categories included budget and reporting, and unallowable costs. Member costs
categories included living allowance and education award. By associating costs with
categories and subcategories of questioned costs, we were able to examine patterns
and identified areas where questioned costs were frequently found. For findings related
to compliance and internal controls, we classified into six categories: financial
management; subgrantee monitoring; financial reporting; grant compliance (matching);
grant compliance (other); and member compliance, eligibility, and reporting. During the
process of preparing the results, we placed certain subcategories together where
groupings seemed appropriate. Refer to Appendix B for a complete listing of our
developed categories and subcategories for questioned costs and findings related to
compliance and internal controls.

We developed categories and subcategories, as described above, to consistently
identify questioned costs and findings related to compliance and internal controls, and to
compile them systematically for retrieval, analysis, and reporting through the
establishment of a series of Microsoft Excel spreadsheets. Utilizing Microsoft Excel
spreadsheets, we further summarized data in various tables and charts to illustrate and
support our analysis. These tables and charts are illustrated throughout this compilation
report.




                                           20
Appendix B: Major Categories and Subcategories of
         Questioned Costs and Findings




                       21
Questioned Costs Categories and Subcategories

Questioned costs were classified in five major categories. Each major category included
various standardized subcategories which were based on the types of questioned costs.

Refer to the Table 3, subcategory “   af
                                     St  f
                                         ing/Pay  rol
                                                    l”(under Cat egor
                                                                    y“C. Unallowable
Costs”)consists of questioned costs due to the following issues:

        Subcategory: Staffing/Payroll
            o Missing/Improper Timesheets
            o Timesheets/Personnel Hours Not Supported
            o Personnel Hours Not Allowable/Allocable/Reasonable
            o Personnel not in Budget
            o Miscellaneous/Combined Issues (Staffing/Payroll)

Similarly, subcategories “Member Eligibility,  ”“                    ”and “
                                                 Member Service Hours,    Member
Status”(  underCat egor i
                        es “  D. Member Costs – Li  ving All
                                                           owance”and “ E.Member
Education Award”  )consist of the following issues:

        Subcategory: Member Eligibility
            o Citizenship
            o Other Eligibility Documents/Member Forms/Evaluations/Contracts

        Subcategory: Member Service Hours
            o Missing/Improper Timesheets/Service Hours Not Supported
            o Service Hours Not Allowable/Allocable/Reasonable
            o Insufficient Service Hours
            o Service Earned Out of Service Period/After Service Completion
            o Miscellaneous/Combined Issues (Member Service Hours)

        Subcategory: Member Status
            o Member Not Enrolled
            o Member Enrolled Outside Service/Grant Period
            o Employee Earned Award

We noted that, for some audit and agreed-upon procedures reports we reviewed, there
were instances in which a questioned cost did not have a detailed breakdown by issue
area, or was related to two or more of the major categories we identified above. In
addition, we noted that the approach and nature of grouping questioned costs varied by
different individual auditors and/or review engagements. Therefore, we included a
subc  at
       egor y“  Miscellaneous/Combined Issues” under each maj     or quest i
                                                                           oned cost
cat egoryt oser veasa“   cat
                           ch-all
                                ”pur pose.




                                          22
Findings Categories and Subcategories

Similar to questioned costs, findings were classified in six major categories. Each major
category included various standardized subcategories based on the types of findings.

Consistent with questioned costs issues classification, certain findings subcategories, as
shown at the Table 5, include further detailed elements of issue areas:

        Subcategory: Financial Status Report
            o Late Submission
            o Missing/Not Submitted FSR
            o FSR not reconciled to Financial Management System/Supports
            o Not Supported by Documentation
            o Other FSR Errors/Variances

        Subcategory: Staff Timekeeping
            o Timesheets Not Retained/Not Prepared
            o Hours Not Allocable/Allowable
            o Timesheets Not Signed
            o Inadequate Timesheets (Errors/Improper Changes)

        Subcategory: Progress Report
            o Late Submission
            o Missing/Not Submitted

        Subcategory: Member Eligibility Not Performed / Untimely Performed /
            Inadequate Eligibility Records
            o Citizenship
            o Missing/Not Submitted
            o Others (High School Diploma, Parental Consent, etc.)

        Subcategory: Membership Forms (Enrollment, Exit, Change-of-Status)
            o Late Submission/Untimely Entered in WBRS
            o Not Retained/Not Prepared/Missing
            o Inadequate Forms (No Signatures/Errors/Improper Changes)

        Subcategory: Evaluations (Mid-Term & Final)
            o Late Submission
            o Not Retained/Not Prepared/Missing
            o Inadequate Evaluations (No Signatures/Errors/Improper Changes)

        Subcategory: Member Timekeeping
            o Late Submission
            o Not Retained/Not Prepared
            o Inadequate Timesheets (No Signatures/Errors/Improper Changes)
            o Variances Between Timesheets and WBRS
            o Hours Recorded Before/After Service Date
            o Hours Not Allowable/Allocable/Reasonable
            o Other Errors


                                           23
        Subcategory: Orientation Documents (Agenda/Sign-in Sheet)
            o Not Retained/Not Prepared/Missing
            o Inadequate Documents (No Signatures/Errors)

        Subcategory: Contract
            o Not Retained
            o Lack of Signatures
            o Signed After Service Date
            o Lack of Elements Required by Grant Provisions/Laws & Regulations
            o Other Errors

We noted that for some audit and agreed-upon procedures reports we reviewed, there
were instances that a finding related to two or more of the major categories we identified
above. In addition, we noted that the approach and nature of grouping findings varied by
different individual auditors and/or review engagements. Therefore, we included a
subc  at
       egor y“ Miscellaneous/Combined Issues”undereachmaj         orfindings category to
ser veasa“  cat ch-all
                     ”pur pose.

In addition, our findings (related to compliance and internal controls) categories and
subcategories were developed to capture all detailed issues as presented in each
audit/agreed-upon procedures report we reviewed. As a result, a finding which was
presented as a single finding in the report could consist of multiple findings utilizing our
developed categories and subcategories. In these cases, we counted findings as
multiple as long as the issues matched our developed categories and subcategories.




                                            24
Appendix C: Exception Error Rates –
  Benchmark for Future Analysis




                25
Based on discussion with Corporation management at the exit conference, we included
Table C-1 below to show the exception error rates for member-eligibility-related findings
during calendar year 2007. Table C-1 serves as a benchmark to assist the Corporation
in comparing exception error rates of member-eligibility-related findings to future years’
reports.

Member-eligibility-related findings have been noted as long outstanding issues for the
Corporation. We also made recommendations on member-eligibility-related findings, as
mentioned in the previous section of this report. Therefore, we highlight the member-
eligibility-related issues and present exception error rates related to this area. Exception
error rates are based on all AmeriCorps audits and/or agreed-upon procedures reports
that were issued during the calendar year 2007. These reports reflected recent findings
and contain data that allowed us to calculate exception error rates.

As we identified the AmeriCorps audits and/or agreed-upon procedures reports that
were issued during the calendar year 2007, we analyzed the findings related to member
eligibility. As part of our work, we developed subcategories of the category “ Member
Compliance, Eligibility, and Reporting.”We calculated the total sample population and
number of exceptions for each report and developed exception error rates by each
subcategory, as shown below.

Table C-1: Error Rate Benchmark on “
                                   Member Compliance, Eligibility, and Reporting”
          (Calendar Year 2007)

Findings Subcategory f
                     or“
                       MemberCompl
                                 iance,El
                                        igi
                                          bil
                                            it
                                             y,andRepor
                                                      ting”                          Error
                                                                                     Rate
Member Eligibility Not Performed/Untimely Performed/Inadequate Eligibility Records
       Citizenship                                                                  13.50%
       Criminal Background Check                                                    47.15%
       Others (High School Diploma, Parental Consent, etc.)                          1.89%
Membership Forms (Enrollment, Exit, Change-of-Status)
       Late Submission/Untimely Entered in WBRS                                     82.12%
       Not Retained/Not Prepared/Missing                                            14.72%
       Inadequate Forms (No Signatures/Errors/Improper Changes)                     24.80%
Evaluations (Mid-Term and Final)
       Not Retained/Not Prepared/Missing                                            58.15%
       Inadequate Evaluations (No Signatures/Errors/Improper Changes)               25.70%
Orientation Documents (Agenda/Sign-in Sheet)
       Not Retained/Not Prepared/Missing                                            50.72%
Contract
       Not Retained                                                                 28.96%
       Lack of Signatures                                                           12.12%
       Signed After Service Date                                                    27.48%
       Lack of Elements Required by Grant Provisions/Laws & Regulations              4.12%
       Other Errors                                                                 14.76%




                                              26
Appendix D: Corporation Response




               27
                                  NATIONAL
                                  COMMU TY
                                           &
                                  SERVICE


To:            Stuart Axenfeld, Assistant Inspector General for Audit

From:          Kristin McSwain, Director, AmeriCorps*State and Nation
               Margaret Rosenberry, Director of Grants Managemen~,r(Jl,l...A..4ft~

Date:          September 22, 2008

Subject:       Response to OIG Draft Report: AmeriCorps Compilation of Findings


We have reviewed the draft report that compiles findings from the AmeriCorps audits
issued between April 1, 2005 and December 31, 2007. The compilation of findings is
helpful and confirms our own analysis of findings which we use to target training and
technical assistance to grantees. We appreciate your willingness to add table C-1 which
establishes some benchmarks for the next report. This will make the next report more
helpful to Corporation management as we identify additional areas for training and
improvement and refine monitoring processes. For purposes of this response to the draft,
we address your recommendations related to the conclusions in the report and provide
some recommendations for your consideration for the next compilation of audit findings.

Member/Program Staff Service Hours and Timekeeping. We concur with the
recommendations. In September 2009, the Corporation will conduct a required
AmeriCorps grantee meeting at which we will provide training on financial management
and compliance for grantee program and financial staff members. The meeting will
include workshops and training sessions on federal grants management requirements,
subgrantee monitoring and AmeriCorps compliance requirements. At the Commission
Executive Director's meeting on September 23 and 24, 2008, we will also present
common audit findings and describe actions grantees can take to ensure they are in
compliance and emphasize the importance of sub grantee monitoring to all commissions.
In addition, the Corporation's monitoring tools include testing of member timesheets and
comparison of WBRS hours to member timesheets.

We also expect the My AmeriCorps portal to be fully implemented by late January 2009.
With its implementation, WBRS will cease to exist and double entry of member hours
will end. Commissions and other grantees will use the portal to monitor member
enrollment and exits. As part of the preparation for the transition to the portal, we also
distributed a sample member timesheet and emphasized the importance of accuracy. In
addition, as recommended in the report, the Commission Standards Review process tests
commission monitoring systems to confirm they review member files and timekeeping
systems and that their policies and procedures are based on sound risk-based processes to
ensure appropriate levels of review.

Member Eligibility and Records. We concur with the recommendations. The
Corporation's AmeriCorps monitoring tools include testing of member files to ensure
eligibility documentation is maintained and timekeeping is accurate. In addition, our
review of commission monitoring tools and procedures during Standards Reviews checks
grantee systems for adequacy. As noted above, at the Commission Executive Director's
meeting September 2008 we will also present common audit findings and re-emphasize
the importance of sub grantee monitoring to all commissions. In addition, before the end
of September, the Corporation will award a cooperative agreement to a technical
assistance provider to develop financial management webinars for grantees that will
include training on the proper match documentation and record-keeping and staff time-
keeping.

Documentation Maintenance and Support for Match. We concur with the
recommendations, but question one of the conclusions related to this finding. The
Corporation emphasizes the importance of providing all documentation to the auditors
during the audit in its correspondence to the grantee as the audit begins. There is no basis
to conclude that the reason documentation is not available during the audit is because the
Corporation allows grantees to submit it later. The report notes that «the grantee has
more than sufficient time before the final audit report is issued to provide source
documentation." While this may be true at the grantee level, it is not always the case for
sub grantees. Our review of questioned costs among commission audits reveals that a
high percentage are at the subgrantee level. Commissions have sufficient notice about
the audit to retrieve Administrative, PDAT and Disability grant documentation that may
have been archived so it is readily available to the auditors. In the past, because
sub grantees to be tested weren't identified prior to the start of audit work, they did not
have sufficient time for some of them to retrieve stored documents from prior completed
program years for auditors.

In our recent discussions with the OIG about the audit process, we agreed OIG staff will
provide advance notice to the Commissions on the subgranees selected so they can
retrieve appropriate documentation from past years in advance of the formal entrance
conference. Corporation staff also revised the letter we send to grantees to re-emphasize
the importance of providing all required documentation to the auditors during the audit.
We think this will help ensure that all documentation is readily during the audit saving
both OIG and OGM staff from unnecessary repetitive work. We also recommend that the
draft report be available in writing at the exit conference so all parties understand what
documentation is considered outstanding.

As noted above, the Corporation is developing webinars through a technical assistance
provider that will address match documentation and record-keeping. In addition, on
Commission Standards Reviews, staff assess the Commission's monitoring policies and
procedures and guidance to subgrantees on record-keeping and documentation.
                                              While a compilation of audit findings is
helpful we hope the next report can include an analysis of the findings in addition to the
compilation. It was helpful that this report provided sufficient analysis of some findings
for the Corporation to identify specific remedies to address the issue; e.g. the report
included detail related to member timekeeping which will be helpful in targeting our
training and technical assistance activities. It would be helpful to have that level of
analysis on all of the major findings. For example, there were 17, findings indicating that
financial management systems were inadequate, but no analysis of the specific
inadequacies. If a system itself is inadequate, the Corporation's recommendation might
be to require the grantee to replace it. However, if a system is adequate, but the grantee
is not using all of the system's capabilities, the outcome and recommendation is very
different.

It would also be very useful to have benchmarks for error rates in other categories besides
the Member Compliance, Eligibility and Reporting included in Table C-1. Other possible
categories would be in staff timekeeping, reconciliation of financial reports to general
ledgers, and match documentation. We would be happy to work with OIG staff to
identify the information auditors would need to include in their reports to make this kind
of analysis possible.
